<html>
<title> - WINNING THE FIGHT AGAINST HUMAN TRAFFICKING: THE FREDERICK DOUGLASS REAUTHORIZATION ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    WINNING THE FIGHT AGAINST HUMAN
                  TRAFFICKING: THE FREDERICK DOUGLASS
                          REAUTHORIZATION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 2, 2017

                               __________

                           Serial No. 115-26

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
25-321 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ff8eff0dffceaecebf7faf3efb1fcf0f2b1">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Robert Benz, co-founder and executive vice president, 
  Frederick Douglass Family Initiatives..........................     6
Ms. Jo Becker, advocacy director, Children's Rights Division, 
  Human Rights Watch.............................................    11
Mr. Tim Gehring, policy and research manager, International 
  Justice Mission................................................    17
Ms. Melysa Sperber, director, Alliance to End Slavery and 
  Trafficking....................................................    23
Ms. Malika Saada Saar, human rights lawyer (co-founder and former 
  executive director, Human Rights Project for Girls)............    46

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Robert Benz: Prepared statement..............................     8
Ms. Jo Becker: Prepared statement................................    13
Mr. Tim Gehring: Prepared statement..............................    19
Ms. Melysa Sperber: Prepared statement...........................    26
Ms. Malika Saada Saar: Prepared statement........................    49

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
Ms. Melysa Sperber: ATEST's ``A Presidential Agenda for 
  Abolishing Modern Slavery and Human Trafficking''..............    76

 
                    WINNING THE FIGHT AGAINST HUMAN
                  TRAFFICKING: THE FREDERICK DOUGLASS
                          REAUTHORIZATION ACT

                              ----------                              


                          TUESDAY, MAY 2, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order.
    Good afternoon to everyone and welcome to our hearing on 
accelerating the fight against human trafficking, with 
particular focus on the new Frederick Douglass Trafficking 
Victims Prevention and Protection Act of 2017, the 
comprehensive bipartisan legislation that my friend and 
colleague Karen Bass and I introduced last Thursday, joined by 
Chairman Royce, Representatives Jackson Lee, Brooks, Frankel, 
Wagner, Cardenas, Poe, and Costello.
    As I think all of you know, in the fight to end modern-day 
slavery, this new bill honors the extraordinary legacy of one 
of the greatest Americans who ever lived. Born in 1818--we look 
forward to celebrating the 200th anniversary of his birth next 
year--Frederick Douglass escaped slavery when he was 20 and 
dedicated his entire life to abolishing slavery, and after 
emancipation, to ending the Jim Crow laws, while struggling for 
full equality for African-American citizens. A gifted orator, 
author, editor, statesman, and as I pointed out at our press 
conference, he was a Republican, he died in 1895.
    We were honored to have Kenneth Morris, his great great 
great-grandson, at our press conference last week, who made 
very incisive remarks about the importance of education, and 
reiterated what will be reiterated today, that knowledge makes 
a man unfit to be a slave. It is easier to build strong 
children than to repair broken men. That is some of the 
tremendous legacy of Frederick Douglass and the foundation that 
now bears his name and has been doing remarkable work for a 
decade.
    The Frederick Douglass Trafficking Victims Prevention and 
Protection Reauthorization Act authorizes $130 million over 4 
years to prevent human trafficking, protect victims, and beef 
up prosecution at home and abroad. Among other things, I note 
that this bill encourages more hotels at home and abroad to put 
policies and trainings in place so that the hotels are less 
likely to be used by human traffickers to exploit children. To 
the extent practicable, the U.S. Government directs government 
travelers using taxpayer money to use hotels that have taken 
affirmative steps to end trafficking within their walls.
    The new bill seeks to restore the credibility of the 
Trafficking in Persons Report produced annually by the State 
Department to hold countries accountable for progress or the 
lack thereof in the fight against human trafficking. As we all 
know, talk is cheap, and many countries will have good, well-
focused, talking points about what they are doing. We want to 
know what is happening on the ground, which is why the data 
calls that go out to our U.S. Embassies and the information we 
exchange between countries, our Embassies, and, of course, the 
TIP office have made a huge difference, all for the positive.
    The report, as we know, scrutinizes more than 190 
countries, with the credible threat of serious sanctions for 
egregious violators that are branded Tier 3, to improve their 
trafficking laws and their actions. But in several notable 
cases, particularly in 2015, countries that should have been 
held accountable by the last administration with Tier 3 
designations were given a pass. Countries such as Malaysia, 
Cuba, China, Oman, Uzbekistan, and others.
    That belief that they got it wrong was exposed in large 
part by a Reuters investigative report that found that the TIP 
office and its personnel had made recommendations to put these 
countries on Tier 3. At a different level of our chain of 
command, for political reasons, especially in the case of a 
country like Malaysia, because they would have been ineligible 
for TPP, which was a very active goal at the time, were not put 
on the Tier 3 sanctions list.
    The new bill tries to ensure that countries complicit in 
trafficking are always held accountable, no politics, ever, and 
will removed from current law the presumption that countries 
failing to quantify convictions and identify victims somehow 
deserve passing grades. IJM's policy director, Tim Gehring, 
will underscore that concern in his testimony today stating,

        The politicization of the tier rankings, against the 
        advice of the anti-trafficking experts at TIP office is 
        to the detriment of the annual report, the U.S. 
        Government's leadership on combating of human rights 
        abuse, and, ultimately, to the people exploited in the 
        countries which receive an undeserving higher ranking.

    Last year alone, I chaired two hearings on this, the first, 
Accountability Over Politics: Scrutinizing the Trafficking in 
Persons Report in July and earlier in March of last year, Get 
It Right This Time: A Victims-Centered Trafficking in Persons 
Report.
    I was profoundly disappointed that the Obama administration 
chose to politicize tier rankings rather than speak truth to 
power. If the Trump administration follows that dangerous 
precedent, I can assure you I and many others will be no less a 
critic.
    The Frederick Douglass Act will also limit the amount of 
time a country can stay on the warning Tier 2 Watch List. Holly 
Burkhalter is here, and she worked so hard with us on the 
Trafficking Prioritization Act, which in part would have 
focused on that issue. And what that will do, this provision, 
it would not be 4 years before their warning is up before they 
get relisted. It could be far sooner than that. The Frederick 
Douglass Act will ensure that countries still using child 
soldiers, such as Afghanistan, where boys are on the front line 
fighting the Taliban by day and being used as sex slaves at 
night, stop this obscene, horrific practice before being 
allowed to partner with the U.S. military, something Green 
Beret Sergeant First Class Charles Martland tried to do at 
great personal cost.
    The Frederick Douglass Act will ensure that waivers for 
countries using child soldiers are not abused. In 2016, only 3 
of 10 countries designated as child soldiers were not allowed 
to access funds, and these were the countries we did not fund 
anyway. The act will ensure that the waiver is used only in 
cases where the President can ensure steps are being taken to 
address the recruitment and use of child soldiers.
    In addition, the act will help keep goods made by child 
trafficking victims out of the United States by ensuring 
continued funding for, and enhancing, the Department of Labor 
reports on slave-made goods.
    Provisions in the act will prevent the abuse of domestic 
servants in Embassies and diplomatic homes in the United 
States. Diplomats and their families in the U.S. are getting 
off scot-free after trafficking domestic servants in their 
homes, and we are trying to change that. Trafficking is illegal 
here no matter who you are.
    The act encourages accountability for U.S. Government funds 
going abroad to help trafficking victims, and strengthens 
implementation of U.S. laws and regulations to prevent 
government purchases from putting money in the hands of 
traffickers. It also amends our Elementary and Secondary 
Education Act to ensure that our students are forewarned or 
taught what to look for when it comes to trafficking. As many 
of our witnesses will say so eloquently today, prevention, 
prevention is key.
    Melysa Sperber makes the point that progress is lagging in 
the prevention area, that we have made progress on protection. 
We have made progress on prosecution of the traffickers, but 
there has been a lag that has been on the prevention side.
    I do want to, before yielding to Ms. Bass, thank so many 
who have worked so hard on this, including my staff, for the 
work that they have done, and Ms. Bass' staff. And I just want 
to single out David Abramowitz is here, and I want to thank him 
for his decades-long efforts on behalf of human trafficking 
victims.
    And I would like to yield to Ms. Bass.
    Ms. Bass. Thank you very much, Mr. Chair.
    The Frederick Douglass Trafficking Victims Prevention and 
Protection Act builds upon the great work of the Trafficking 
Victims Protection Act, which was led by Chairman Smith.
    As the co-chair of the Congressional Caucus on Foster Youth 
and a member of the Caucus on Human Trafficking, I am 
particularly concerned about what we are doing to combat the 
devastating epidemic of young girls in the foster care system 
falling prey to child exploitation and sex trafficking. The 
intersection between involvement in child welfare and child sex 
trafficking has been documented by a number of organizations 
and agencies. It is estimated that well more than 60 percent of 
child victims of commercial sex exploitation have been in the 
foster care system. And we also know the average age of a girl 
entering into trafficking is 12 years old.
    One of the main reasons girls cannot escape is because they 
do not have safe and appropriate housing options. Because these 
girls are under the care of the Federal Government and the 
Federal Government in effect becomes their parent, then it is 
the responsibility to make sure that these girls do not fall 
between the cracks, and sadly, our Government has failed young 
girls in the foster care system by not intervening with 
aggressive effort to meet the unique and special needs of this 
vulnerable population.
    As we continue to tackle the growing epidemic of child sex 
trafficking in the United States, it is critically important 
that we focus on the special housing needs of young girls in 
the foster care system.
    In working with my colleagues on the drafting of the 
legislation, I wanted to make sure that we keep this focus by 
keeping the needle of Federal grant money aimed at providing 
long-term and trauma-informed housing assistance to 
disconnected youth and underserved women and girls between the 
ages of 10 and 24 who are homeless, in foster care, or are 
involved in the juvenile justice system.
    Current funding for housing and shelter for victims of 
child sex trafficking is insufficient to meet the growing 
demand of youth victims, especially young foster girls 
exploited through their emotional and financial 
vulnerabilities. In order to fully address the current housing 
crisis, the Federal Government needs to fully invest in 
providing safe and stable housing options and access and self-
sustaining economic opportunities. The child welfare to sex 
trafficking pipeline must stop. We know that the majority of 
children that are trafficked are girls, but we also know that 
boys can be caught up in this as well.
    This bill is a good step forward in raising awareness of 
the collective and coordinated efforts required at every level 
of government to stop and prevent child sex trafficking.
    Mr. Smith. Thank you, Ms. Bass.
    We do have three votes. And I regret, and I apologize to 
our distinguished witnesses. We will take a very brief recess 
while we go vote.
    I do want to thank Allison Hollabaugh for her work on this. 
Allison has been working tenaciously on all aspects of this, 
working with the stakeholders who care so deeply and have such 
good insights as to what is needed to make our trafficking 
efforts even more efficacious.
    And I do want to thank, I mentioned David Abramowitz; 
although he is not here, Ambassador Joseph Rees, who worked as 
such a great team of staffers on the original Trafficking 
Victims Protection Act. It took 3 years to get that law 
enacted. Some people thought we were a solution in search of a 
problem. It is not like it is today where there is a general 
understanding, although it is still never enough. But I want to 
thank all of you for your extraordinary help on this.
    We will take a brief respite. We will be back in about 15 
or 20 minutes. Thank you.
    [Recess.]
    Mr. Smith. The subcommittee will resume its hearing. Again, 
I apologize for the delay.
    I would like to introduce our very distinguished panel of 
witnesses, beginning first with Mr. Robert Benz, who is co-
founder and executive vice president of the Frederick Douglass 
Family Initiatives, where he is responsible for policy, 
programming, and strategic development. Mr. Benz led the 
development of FDFI's core philosophy behind his prevention 
education approach to human trafficking and developed its One 
Million Abolitionists Project, which will print and give away 1 
million copies of the bicentennial edition of the Narrative of 
the Life of Frederick Douglass, An American Slave, to young 
people across the country. And I have been promised a copy too, 
so thank you. Mr. Benz was also a founding partner in the 
PROTECT Human Trafficking Training and Education program in the 
State of California.
    We will then hear from Ms. Jo Becker, who is the advocacy 
director of the Children's Rights Division at Human Rights 
Watch. As the founding chairperson of the International 
Coalition to Stop the Use of Child Soldiers, she helped 
campaign successfully for an international treaty banning the 
forced recruitment of children under the age of 18 or their use 
in armed conflict. She has conducted field investigations on 
children's rights in Burma, Ghana, India, Indonesia, Morocco, 
Nepal, Sri Lanka, Uganda, and the United States. She is also an 
adjunct associate professor of international and public affairs 
at Columbia University and an award-winning author of two 
books.
    We will then hear from Mr. Tim Gehring, who is the policy 
director for the International Justice Mission. Prior to this 
position, he served as the principal researcher for The Locust 
Effect, a Washington Post best seller about how violence 
against the poor perpetuates poverty. He holds a master's in 
international economics and development from the University of 
Kentucky. He is a member of the IJM government relations team 
for the past 6 years.
    We will then hear from Ms. Melysa Sperber, who is the 
director of the Alliance to End Slavery and Trafficking, or 
ATEST. Melysa coordinates the coalition's efforts to advocate 
for solutions to prevent and end all forms of human trafficking 
and modern slavery in the United States and overseas. Prior to 
joining ATEST, she was director of human rights at Vital Voices 
Global Partnership, where she implemented programs in more than 
20 countries to combat violence against women, including human 
trafficking, domestic violence, and sexual violence. Melysa 
also previously served as a staff attorney at the Tahirih 
Justice Center, a nonprofit legal services agency that provides 
services to women fleeing gender-based persecution.
    And our final, last but not least, and we certainly look 
forward to her testimony, Ms. Malika Saada Saar, who is an 
accomplished human rights lawyer. She was the founder and the 
executive director of the Human Rights Project for Girls, a 
human rights organization focused on gender-based violence 
against young women and girls in the United States. She led the 
effort to shut down craigslist sex ads that served as the 
leading site for the trafficking of children for sex, ended the 
Federal practice of shackling pregnant mothers behind bars in 
the United States prisons, and successfully advocated for 
millions in Federal funding for treatment centers for at-risk 
families.
    Again, I thank you for your patience. Above all, I thank 
you for your advocacy and leadership and for taking the time to 
testify today.
    Mr. Benz.

  STATEMENT OF MR. ROBERT BENZ, CO-FOUNDER AND EXECUTIVE VICE 
        PRESIDENT, FREDERICK DOUGLASS FAMILY INITIATIVES

    Mr. Benz. Good afternoon, Chairman Smith, Ranking Member 
Bass, and subcommittee members. Thank you for inviting me 
today.
    I am very happy to discuss the recently introduced 
Frederick Douglass Trafficking Victims Prevention and 
Protection Reauthorization Act. I love the sound of that.
    Frederick Douglass Family Initiatives, or FDFI, is an 
Atlanta-based public charity that was founded by Nettie 
Washington Douglass, Kenneth B. Morris, Jr., and myself. Ms. 
Douglass has an incredible lineage. She is the great great-
granddaughter of Frederick Douglass, and she is also the great-
granddaughter of Booker T. Washington. Her eldest son, Mr. 
Morris, is, of course, one generation removed from these two 
influential Americans.
    Since 2007, FDFI has built upon those legacies in 
developing methods for addressing contemporary slavery through 
prevention education, professional training, and grassroots 
community collaboration. Our organization is guided by a 
philosophy that is articulated in those two famous quotes that 
you mentioned earlier, that knowledge makes a man unfit to be a 
slave, and that it is easier to build strong children than to 
repair broken men.
    We believe that the Frederick Douglass Act is a critical 
step to integrating these two ideas into anti-trafficking 
efforts, both domestically and abroad.
    The addition of the word ``prevention'' to the title of the 
bill gives us hope that more attention and more resources will 
be focused on what happens to a person, especially a child, 
before they become a victim of human trafficking.
    In order to begin reducing the numbers of new victims being 
exposed to the unforgiving cycle of exploitation, we must 
consider investing in primary prevention and early intervention 
strategies. To be clear, when we speak of primary prevention, 
we are referring to the application of knowledge in the form of 
education, training, and/or awareness initiatives for general 
populations.
    The cost benefits to taxpayers for preventing or mitigating 
human trafficking at an early stage are enormous. The human 
benefit for preventing someone from being victimized is 
incalculable.
    We are encouraged by the bill's recommendation to amend 
language in the ESEA that will incentivize educating children 
on the signs and dangers of human trafficking. FDFI has 
firsthand experience doing this in primary and secondary 
schools, while collaborating with educators, law enforcement, 
service agencies, and NGOs. Through our curriculum, we help 
young people make the connection between historical and modern 
slavery, then ask them to take what they have learned and do 
something to address the problem in their communities.
    FDFI also develops training programs for educators, youth 
supervisors, and community professionals helping to build 
stronger and safer social structures around children. We are 
particularly proud of the prevention education and training 
program started in 2016 called PROTECT, an acronym meaning 
Prevention Organized to Educate Children on Trafficking. It 
will be implemented in 35 of 58 California counties by 2019. 
Our partners include 3 Strands Global, Love Never Fails, 
Polaris Project, and the California Department of Education.
    Together, we are creating a model that can be replicated 
elsewhere in the world that is holistic, cost efficient, and an 
effective way to keep children from being trafficked in 
communities from California to Khartoum. I have provided more 
details on PROTECT for the written record.
    The United States took a leadership role in anti-
trafficking with the first Trafficking Victims Protection Act 
in 2000. We now have an opportunity to become the leader for 
innovative primary prevention strategies that we believe will 
incrementally reduce the numbers of young victims and allow us 
to envision eradicating contemporary slavery in the United 
States and around the world. We also hope that the endorsement 
of prevention within the Frederick Douglass Act will translate 
meaningfully into the design of the next strategic action plan 
on human trafficking. FDFI is enthusiastic about supporting and 
participating in these efforts.
    In the meantime, on behalf of the Frederick Douglass 
family, we look forward to collaborating with Federal 
legislators, agencies, and nonprofit organizations in our 
mutual struggle to end contemporary slavery.
    [The prepared statement of Mr. Benz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Benz, thank you very much for your 
testimony.
    Ms. Becker.

   STATEMENT OF MS. JO BECKER, ADVOCACY DIRECTOR, CHILDREN'S 
              RIGHTS DIVISION, HUMAN RIGHTS WATCH

    Ms. Becker. Chairman Smith, Ranking Member Bass, and 
members of the subcommittee, thank you for the opportunity to 
testify today regarding the Frederick Douglass Reauthorization 
Act and to specifically address how this bill will help the 
United States more effectively curtail the recruitment and use 
of child soldiers around the globe.
    One of the most tragic aspects of contemporary warfare is 
the participation of children: As spies, as lookouts, as 
guards, as cooks, and very often on the front lines of combat. 
The ranks of child soldiers include young girls forced to carry 
out suicide attacks by Boko Haram in Nigeria, children lured to 
fight in Syria by promises of money, and boys in South Sudan 
who join fighting forces after their schools have been 
destroyed and they lose all hope of education.
    I have worked on the issue of child soldiers for nearly 20 
years, and during that time, I have seen both positive and 
negative developments. Some of the good news is that since 
2000, more than 100,000 child soldiers have been released or 
demobilized from national armed forces and armed groups. The 
number of countries where children are actively fighting has 
dropped by a third, and at least 26 governments and armed 
groups have signed action plans with the United Nations to end 
their use of child soldiers.
    But at the same time, in some countries, the situation is 
getting much worse. In Yemen, for example, the U.N. reported 
that the rate of child recruitment increased fivefold in just 1 
year. In Afghanistan, child recruitment doubled between 2014 
and 2015. In South Sudan, at least 16,000 children have been 
recruited as soldiers in the past 3 years alone.
    The United States has played an important role in helping 
to curtail the use of child soldiers. The U.S. exerted 
leadership in 2002 by ratifying the U.N. treaty that prohibits 
the use of children in hostilities. After ratification, all 
branches of the armed services immediately issued new rules to 
keep underage soldiers out of combat, and this helped to set an 
important and positive example for other militaries worldwide.
    Congress, to its great credit, decided to tackle the issue 
further in 2008, when it adopted the Child Soldiers Prevention 
Act as part of the Trafficking Victims Protection 
Reauthorization Act that year.
    The principle behind the Child Soldiers Prevention Act is 
simple. Foreign governments should not get U.S. military 
assistance if they use or support the use of child soldiers. 
This law applies to six categories of U.S. military funding, 
including foreign military financing, direct commercial sales, 
and foreign military sales.
    The Child Soldiers Prevention Act sends a very powerful 
message. If you want U.S. military assistance, you can't use 
child soldiers. This legislation was first proposed by Senators 
Sam Brownback of Kansas and Richard Durbin of Illinois. It 
garnered strong bipartisan support and was signed into law by 
President George W. Bush.
    The law requires the State Department to issue a list every 
year of the governments that are involved in the use of child 
soldiers. Since the law was implemented in 2010, the list has 
varied between 6 and 10 governments. Five have been listed 
every single year: Burma, the Democratic Republic of the Congo, 
Somalia, Sudan, and Yemen.
    Now, under the Child Soldiers Prevention Act, we have seen 
several success stories, but uneven implementation of the law 
has also resulted in many missed opportunities. One success 
story is the Democratic Republic of the Congo. At the height of 
Congo's war in the 1990s, 30,000 children were fighting on all 
sides of the conflict. The U.N. tried for 7 years to try and 
get Congo to sign an action plan to end their use of child 
soldiers and failed. But after the Obama administration 
announced that it was withholding foreign military financing 
and training of a battalion under the Child Soldiers Prevention 
Act, Congo took only 5 days to sign an action plan, and since 
then their recruitment of children by government forces has 
dropped to almost zero.
    So this example shows the potential of the law to effect 
change, but unfortunately there have been many other missed 
opportunities.
    Mr. Chairman, earlier you said that too many governments 
are being given a pass, and when it comes to child soldiers, 
unfortunately that is the case. The law allows the President to 
issue national security waivers that allow countries to 
continue receiving aid, even if they have done little or even 
nothing to curb their use of child soldiers. Congress intended 
these waivers to be used in exceptional cases, but 
unfortunately they have become more the norm than the 
exception.
    The Stimson Center found that President Obama used these 
waivers in 60 percent of all cases and that 95 percent of the 
aid that would normally be withheld by the law was allowed to 
go through. As a result, governments using child soldiers have 
very little incentive to take the law seriously and to stop 
exploiting children.
    The Frederick Douglass Reauthorization Act is going to make 
important amendments to the Child Soldiers Prevention Act, and 
will help ensure that this law is used for its intended purpose 
while still maintaining flexibility. The Frederick Douglass 
Reauthorization Act will help reduce the use of waivers for 
countries that have done nothing to address their use of child 
soldiers, and will provide for much greater transparency on how 
the act is implemented. These provisions will go a long way in 
enabling the U.S. to be much more effective in ending the 
exploitation of children as soldiers around the world.
    Thank you very much.
    [The prepared statement of Ms. Becker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Ms. Becker.
    I would like to now yield to Mr. Gehring.

  STATEMENT OF MR. TIM GEHRING, POLICY AND RESEARCH MANAGER, 
                 INTERNATIONAL JUSTICE MISSION

    Mr. Gehring. Thank you, Chairman Smith, and thank you, 
Ranking Member Bass, for holding the hearing and giving me the 
opportunity to testify today. I would also like to take the 
opportunity to thank your staff, who worked relentlessly and 
with sincere passion to craft a bill that takes a comprehensive 
approach to address the needs of all victims, both here in the 
United States and abroad, children and adults, men and women 
from all types of exploitation.
    I am honored to be here on behalf of International Justice 
Mission, a human rights agency that works to increase the 
capacity of public justice systems around the world to respond 
to violent crime, including forced labor and sexual 
exploitation. We collaborate with courts, police, prosecutors, 
judges, and social workers around the world to rescue victims, 
hold perpetrators accountable through investigations, arrests, 
prosecutions, and restore survivors.
    IJM has seen broken justice systems improve dramatically by 
ending impunity for crimes and providing a deterrence for 
trafficking and slavery.
    The Frederick Douglass Trafficking Victims Protection 
Reauthorization Act of 2017 is the sixth iteration of the 
original Trafficking Victims Protection Act, a bill that, 
thanks to your leadership, Chairman Smith, was authorized 
almost 2 decades ago. And from IJM's perspective, the TVPA and 
its subsequent authorizations have been transformative in ways 
that other human rights legislation has not because Congress 
has been engaged in close oversight since the legislation was 
first enacted.
    Similarly, Congress supported the Office to Monitor and 
Combat Trafficking in Persons in the State Department, 
including by increasing its grant and administration budget, 
holding regular hearings, and its willingness to protest 
politicization of the rankings in the annual Trafficking in 
Persons Report has been extremely helpful in cementing the 
policies of the TVPA. It has strengthened the hand of the TIP 
office, it has strengthened the U.S. anti-slavery policy, and 
it has strengthened slavery-burdened countries' efforts to 
prevent, protect, and prosecute trafficking in persons.
    The minimum standards that were articulated in the original 
TVPA and that have been maintained for the past 2 decades have 
given U.S. diplomats a consistent foundation for engaging 
governments on the steps required to meet the international 
anti-trafficking standards of which the TVPA was based. 
Seventeen years after the original TVPA was authorized, 
countries are well aware of what those standards are, and it is 
important that we do not move the goalposts. Doing so risks 
losing the leverage that the TIP office and its dedicated staff 
has built over many years of engagement. Rather, the reporting 
process should be strengthened, and we should hold the 
countries accountable for showing concrete action and credible 
evidence to justify their tier rankings. And I am encouraged 
that the legislation includes many of these provisions that 
provide more granularity and transparency.
    It is worth emphasizing, however, that the politicized 
rankings such as Malaysia's upgrade in 2015 that you referred 
to, Chairman Smith, didn't occur because U.S. law was unclear. 
It occurred because other interests prevailed over factual 
accounting. Therefore, the fix for this problem isn't always 
legal or legislative. It is rather that the entire State 
Department needs to put its weight and will in an accurate and 
candid report, and helping governments make progress.
    Many of the struggles between Congress and the executive 
branch have been over the Tier 2 Watch List ranking Chairman 
Smith, this is an issue you spoke to earlier, especially 
preventing Tier 2 Watch List countries from becoming a 
purgatory for poorly performing countries that the State 
Department doesn't want to downgrade to Tier 3. And the reason 
that the State Department doesn't want to put countries on Tier 
3 is because it is largely viewed as the pariah's club, 
populated almost entirely by countries that the U.S. has 
strained diplomatic relationships with: North Korea, Iran, 
Syria, Venezuela.
    And, indeed, all of these countries have significant 
trafficking in persons problems, but the perception is that 
Tier 3 has become a dumping ground for countries that the U.S. 
doesn't like for other reasons. And consigning friendly 
countries to this list then becomes quite problematic, and the 
regional bureaus within the State Department are then reluctant 
to do so. But if Tier 3 and the other tier rankings were simply 
an accurate assessment of the government's TIP performance, it 
wouldn't need to be dramatic or disruptive. It would just be a 
statement of fact.
    The politicization of the tier rankings against the advice 
of the anti-trafficking in persons experts at the TIP office is 
to the detriment of the annual report. It is to the detriment 
of the U.S. Government's leadership on combating this human 
rights abuse. And, ultimately, it is to the detriment of the 
people in these countries which receive an undeserved higher 
ranking.
    The U.S. Government has a number of diplomatic and 
political tools to support allied countries, but rewarding them 
with undeserved rankings in the TIP Report should not be one of 
them.
    IJM has provided rescue to over 34,000 people from violent 
oppression in the past several years. We have seen how the TIP 
Report makes an actual difference in people's lives, when it 
spurs countries to action, and when it impacts the realities of 
actual people. So it is imperative that the rankings of each 
country also be based in reality.
    Thank you, Mr. Chairman and Ranking Member Bass. I look 
forward to your questions.
    [The prepared statement of Mr. Gehring follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Gehring. I would just 
note for the record that Gary Haugen testified right here when 
we were working on the original Trafficking Victims Protection 
Act, and his insights were of tremendous value in shaping the 
original bill, all the subsequent iterations of it. As a matter 
of fact, we have a copy. It was September 14, 1999. And so if 
you could pass on to him the subcommittee's gratitude, my 
personal gratitude, for his leadership years to date. It has 
been extraordinary.
    Mr. Gehring. Thank you.
    Mr. Smith. Ms. Sperber.

  STATEMENT OF MS. MELYSA SPERBER, DIRECTOR, ALLIANCE TO END 
                    SLAVERY AND TRAFFICKING

    Ms. Sperber. Thank you.
    Mr. Chairman, Ranking Member Bass, thank you for holding 
this hearing on one of the most intractable human rights 
violations of our time, the crime of human trafficking. And 
thank you for the opportunity to testify today. I also echo 
Tim's gratitude to your staff for their hard work.
    Mr. Chairman, I am the director of the Alliance to End 
Slavery and Trafficking. ATEST is a coalition of 13 human 
rights organizations that advocates for solutions to prevent 
and end all forms of human trafficking and modern slavery 
around the world. ATEST is supported by Humanity United and 
Humanity United Action.
    Mr. Chairman, my written statement outlines the progress we 
are making, as well as noting ways the U.S. Government should 
invest in programming and implement policy solutions that will 
reduce vulnerability to human trafficking worldwide. I ask that 
my full statement be made a part of the record.
    Mr. Smith. Without objection, yours and that of all of our 
distinguished witnesses, and any additional material you think 
the subcommittee should have in its record. Without objection, 
so ordered.
    Ms. Sperber. Thank you.
    I also would draw the subcommittee's attention to ATEST's 
Presidential Agenda for Abolishing Modern Slavery and Human 
Trafficking. It has many important recommendations that apply 
to Congress, as well as the new administration. And thank you 
so much for agreeing for it to be part of the record.
    Today, I will focus my remarks on the Frederick Douglass 
Trafficking Victims Prevention and Protection Reauthorization 
Act. ATEST welcomes the introduction of the FDTVPPRA, and we 
are particularly pleased with the bill's emphasis on 
prevention.
    Nearly 2 decades after the enactment of the landmark 
Trafficking Victims Protection Act, we have made considerable 
progress, particularly in mobilizing political will to 
prosecute traffickers and protect victims of all forms of 
trafficking.
    Progress is lagging, as you noted, Mr. Chairman, on 
prevention, and we commend the reauthorization's sponsors for 
taking up this challenge.
    I first started understanding the importance of prevention 
when I got my first anti-trafficking job. I just did not know I 
was combating human trafficking at the time. I worked for a 
faith-based organization serving runaway and homeless youth in 
New York City, LGBTQI youth fleeing abusive situations, young 
men and women of color caught in an unforgiving criminal 
justice system, and children exiting the foster care system, 
who, as Ranking Member Bass noted, are at heightened risk.
    All of them were marginalized. All of them were desperate 
to survive, and all of them were at risk of human trafficking. 
But I saw that if they had their basic needs covered, access to 
specialized services, and the promise of opportunity, the young 
people I met were resilient and unstoppable. And because they 
were receiving services, they were less at risk to human 
trafficking and other forms of exploitation.
    Later, I worked as an attorney representing immigrant women 
who survived being trafficked into the United States for labor 
and sexual exploitation. Each of my clients pointed to moments 
in their lives when, had there been services and resources 
available, the vulnerability they faced could have been 
alleviated. The message these women sent was straightforward: 
Their suffering could have been prevented. The reason for 
sharing the message was just as straightforward: They wanted to 
prevent someone else's suffering. My clients taught me the 
importance of prevention, and they left me with an even more 
valuable lesson: Survivors are the experts. They know the most 
about this crime, how to prevent it, how to recover from it, 
and how to thrive as a survivor of it.
    I later joined an international women's organization where 
we worked with local partners to implement anti-trafficking 
programs supported by the U.S. State Department. I met girls 
whose mothers had been trafficked into local brothels. These 
girls knew, even at the early age 9 or 10, that this would have 
been their future if not for the incredible programs that took 
them off the streets, provided them with a safe place, an 
education, a way out of abject poverty and vulnerability.
    I also met with law enforcement, prosecutors, and judges 
who work to prosecute trafficking cases. They unequivocally 
pointed to prevention as the greatest priority. They also 
stressed the simultaneous challenge of finding resources and 
mobilizing attention on proven ways to prevent exploitation, 
strategies that include providing children and families with 
access to education, livelihood, and social protection 
programs, strengthening rule of law, and ensuring survivors, 
vulnerable youth, and workers inform the development and 
implementation of anti-trafficking policy.
    ATEST believes the U.S. Government can and should 
strengthen its leadership to combat human trafficking around 
the world by resourcing efforts to prevent this crime and 
provide comprehensive services to those who are victimized. We 
are deeply concerned about the Trump administration's proposed 
cuts to foreign assistance, which we believe could have 
significant impact on our anti-trafficking efforts.
    We commend this committee for spurring multiple 
administrations to use the full range of foreign policy tools 
to combat this scourge and urge that you continue to do so as 
the administration transition continues.
    At Humanity United, we focus on bringing new solutions to 
global problems that have long been considered intractable. For 
us, preventing the risk of human trafficking is a critical 
element of our strategy. Whether it is working alongside 
companies to identify and address trafficking in their supply 
chains, advocating for the enforcement of the Tariff Act's 
prohibition on the importation of slave-made goods, or learning 
from survivors' critical expertise, we know that solutions to 
trafficking begin and end with preventing this crime from 
occurring in the first place.
    ATEST believes the reauthorization bill would bolster our 
efforts to prevent human trafficking from happening in the 
first place. This bill does that in ways such as enhancing the 
integrity of the U.S. State Department's Trafficking in 
Person's Report to ensure, as you noted, Mr. Chairman, that 
politics never, ever determines tier rankings; enabling schools 
to educate children about how to avoid all forms of human 
trafficking; ensuring that U.S. Government procurement does not 
fund human trafficking; bolstering protections for domestic 
workers employed by diplomats; and reauthorizing critical anti-
trafficking programs across the government.
    ATEST looks forward to working with the bill's sponsors and 
all Members of the House to move it forward with strong 
bipartisan support. We want to continue working with the 
committee to seek ways to strengthen the bill even further. A 
few of our proposed suggestions are contained in my written 
testimony.
    We also urge you to oppose deep and disproportionate cuts 
to the international affairs budget in both the Fiscal Year 
2017 and Fiscal Year 2018 spending bills. If realized, the cuts 
would be devastating for anti-trafficking efforts worldwide.
    Thank you, Mr. Chairman and members of the committee, for 
all the work you have done to ensure the U.S. Government 
continues to be a leader in the fight to end trafficking 
worldwide. Thank you.
    [The prepared statement of Ms. Sperber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ms. Sperber, thank you for your testimony and 
for your multiple recommendations made in that extensive 
submission that you have made to the subcommittee. Thank you so 
very much.
    I would like to now yhield to Ms. Saada Saar.

  STATEMENT OF MS. MALIKA SAADA SAAR, HUMAN RIGHTS LAWYER (CO-
FOUNDER AND FORMER EXECUTIVE DIRECTOR, HUMAN RIGHTS PROJECT FOR 
                             GIRLS)

    Ms. Saada Saar. Thank you, Chairman. Thank you, Ranking 
Member Congresswoman Bass. Thank you for the invitation to be 
here today.
    I am the cofounder and former executive director of the 
Human Rights Project for Girls, an organization that I founded 
to address gender-based violence. Although I am presently 
Google's senior counsel on civil and human rights, I am pleased 
to appear before you today as a human rights lawyer, who for 
more than 15 years has witnessed how children trafficked on 
American soil have too often been left behind.
    Let me begin with a story of a girl, a trafficked girl who 
tried to run away. She could no longer endure the sexual 
torture and injury done to her still-child's body. She could 
not tolerate being raped every day again and again by the men 
who purchased her. Because she could not take it anymore, she 
ran, but her trafficker caught her. And to make an example of 
her, to scare the other girls under his control, he set her on 
fire.
    This is not a story of child sex trafficking and 
enslavement that happened in some faraway country. It is our 
story. It is the story of a trafficked girl here in the U.S., 
in Compton.
    Girls are sold in this country with the same disregard for 
human dignity, and they are tortured and burned in the same 
ways when they try to escape. Across the United States, there 
are child sex markets not very different from those in 
Cambodia, in Thailand, and in India. Girls are abducted or 
lured by traffickers, and once in the commercial sex trade, 
they are routinely raped, beaten into submission, and sometimes 
even branded. They are branded like cattle. I have met girls 
whose faces were branded with the names of their traffickers.
    The human rights activist Ruchira Gupta says that the girl 
who is bought and sold anywhere in the global slave trade is 
always the last girl. She is the child who has been left behind 
by her family, by her community. She is the child who has been 
denied love, denied support, denied education, safety, and 
economic stability. In the U.S., the last girl is often the 
girl left behind by our foster care system. Most of the 
children bought and sold here for sex are child welfare 
involved, and the data is devastating.
    So in California, between 50 and 80 percent of sexually 
exploited children were involved in the child welfare system. 
The Administration on Children, Youth, and Families has cited 
several studies showing that 50 to 90 percent of victims of 
trafficking had been involved with child welfare services. In 
2013, 60 percent of the sex trafficking victims recovered as 
part of the FBI's nationwide range were children from foster 
care or group homes.
    There are so many girls I have met whose lives painfully 
demonstrate this child welfare to trafficking pipeline. For 
example, at a policy roundtable with 12 girls who had been 
exploited, I listened as each one of them began their story of 
being trafficked with the story of being in foster care. All of 
the girls experienced multiple foster care placements. Most of 
them were sexually abused while in care. Some of the girls 
disclosed that they were willing to endure the sexual abuse so 
that they would not be moved to yet another home. One girl said 
she stayed so that she and not her sister would suffer the 
abuse.
    Every one of the girls said that this chaos and violence 
groomed them to be trafficked. And it makes sense. It makes 
sense that a young girl moving through different homes, 
different congregate care settings, abused in those placements, 
is vulnerable to a trafficker who tells her that she is 
beautiful, that she is loved, that he will be her father, her 
boyfriend, her Prince Charming and take care of her.
    Withelma Ortiz Walker Pettigrew, the powerful advocate and 
survivor leader, said that her own experience of 14 different 
foster care placements was, in fact, her training ground for 
being trafficked. As she notes:

        Like me, any youth in foster care becomes accustomed to 
        adapting to multiple moves from home to home, which 
        allows us to easily then adapt when traffickers, pimps, 
        exploiters move us multiple times from hotel to hotel, 
        city to city, and/or State to State. For myself, as 
        unfortunate as it is to say, the most consistent 
        relationship I ever had in care was with my pimp and 
        his family.

    It must be understood that the child welfare to trafficking 
pipeline is also a homeless pipeline. So we tell women to run 
from abuse, but when girls in care run from abuse, they often 
become homeless. They run to shelters or to bus stops or they 
loiter on the streets, and it is in those places of 
vulnerability that traffickers seduce or coerce them. According 
to the National Center for Missing and Exploited Children, 60 
percent of runaways who are victims of sex trafficking were in 
foster care.
    Indeed, homeless children who have run from home or from 
foster care to protect themselves because they are LGBTQ youth 
or abused youth or both are all at risk. One in five homeless 
children report being a victim of trafficking.
    We cannot, we cannot continue to disregard the suffering of 
our kids. We cannot continue to allow our children to be so 
hurt and so invisible that a trafficker is their only hope. 
That is why the Frederick Douglass Trafficking Victims 
Prevention and Protection Act of 2017 is critical. Especially 
critical is the bill's emphasis on grants for housing and 
trauma-informed services.
    Safe housing disrupts the pathways to child sex 
trafficking. Safe housing gives exploited children an 
alternative to the trafficker. And as the bill points out, safe 
housing for our exploited children must be specialized and must 
be trauma-informed. These girls who have been subject to 
repeated rape and abuse need trauma-informed care to heal from 
the injuries done to them, but it is not only that they have 
been subject to systematic rape; they have also been rendered 
property. They require the supports to heal from that kind of 
violence and enslavement.
    If we are to honor the great abolitionist Frederick 
Douglass, if we are to really hold ourselves accountable to the 
girls who are turned into sexual property, like the girl in 
Compton who tried to escape, then let us do the urgent work of 
creating new underground railroads out of this modern day form 
of slavery. Thank you.
    [The prepared statement of Ms. Saada Saar follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much for your leadership and for 
your testimony.
    Let me begin, if I could, with some questions. First, Ms. 
Becker, if I could start on child soldiering with you. As you 
know, our legislation does really try to beef up and 
strengthen, as you have pointed out in your testimony, by 
providing effective and continuing steps when there is a waiver 
so that we don't see an abuse of the waiver; the idea that 
government-supported police and the security forces would be 
added to the military; and then the accountability in terms of 
reporting to Congress, the committees of Congress, in a very 
prompt and robust way.
    Greg Simpkins and I were in South Sudan last August. We met 
with Salva Kiir, five of his generals, his Minister of Defense, 
and his Vice President, and really pressed hard on a zero 
tolerance policy on sexual abuse, the targeting of vulnerable, 
mostly women and children, as well as aid workers and child 
soldiering as a huge problem in South Sudan. About 16,000 is 
the current estimate. It could be higher or lower, but it is a 
major, major league problem. He promised to help on the zero 
tolerance policy. We are still waiting with bated breath for 
that to be truly implemented, although I think it will. There 
are some signs, but it is still not there.
    So if you could speak to the language in the bill because, 
again, when waivers are provided, you have underscored the 
good, the bad, and the ugly with your comments on the DRC, 
Rwanda, and Chad. And I think the fact that DR Congo went down 
to near zero on recruitment is a major success story. And then, 
you know, further down in your testimony, of course, you talk 
about how in 60 percent of all cases, according to the Stimson 
Center, waivers were used, accounting for 95 percent of the aid 
affected by the law, which is the ugly. If you can elaborate on 
how you think this legislation might help.
    And then I would like to go, if I could, to Melysa Sperber 
about progress is lagging in the area of prevention. You point 
out that prevention is more than awareness raising. I agree 
with that. Systemic causes always need to be addressed if you 
want to get rid of the underlying problem. But we have not done 
enough even on the awareness raising. So if you could elaborate 
on that, both parts of it.
    Of course, Mr. Benz, you on the awareness raising as well, 
because I do believe that knowledge is power. The more these 
young people at the earlier age know what awaits them if they 
are runaways or get involved with one of these pimps or 
traffickers, that they are inviting hell on Earth into their 
lives and that of their friends if they go that path. And of 
course, drugs are so often a part of it.
    So there needs to be a major effort, I would think, 
starting with the President, the Governors, certainly Congress, 
and amending the Elementary and Secondary Education Act is a 
major step in that direction. Maybe there is more that we need 
to be doing. But if you could speak to this issue of 
prevention.
    I still think we lag on prosecution as well as on the area 
of protection of the victims, the three Ps of trafficking, but 
it seems to me that if you could stop it in the first place, 
just like if you look at health, an ounce of prevention is 
worth a pound of cure, the more we stop cancer before it starts 
or in its early stages, the more likely the trauma will not 
follow.
    If I could, Ms. Saada Saar, if you could tell us about your 
successful efforts to shut down craigslist, an adult services 
page, what lessons have we learned to help stop children being 
trafficked online. There is a very serious effort being 
undertaken by Ann Wagner to look at the CDA to amend it, to 
change it so that liability is not sloughed off as it has been 
so that Backpage can operate almost with impunity, almost like 
a slaver block where women are put online and sold like 
commodities and young girls and young boys, so if you could 
speak to that. And then I do have many, many other questions.
    And I also thought, Ms. Sperber, your point about the 
Achilles heel of anti-trafficking efforts is the lack of 
evidence. When we did the first Trafficking Victims Protection 
Act, we had language in it which we got right from the U.S. 
Department of State that said 50,000 people are trafficked into 
the United States every year. It was in our findings. It was 
wrong. It turned out to be a very bad survey. But I can't tell 
you how many people, including the Washington Post, used that 
and some other imprecise calculations to mock our efforts on 
human trafficking, and they mocked it. Front page above the 
fold, left-hand side--I will never forget the article--rather 
than covering the silent epidemic against women and children 
called human trafficking, because so much of it is hidden, they 
looked at a statistic that probably was false and had a great 
deal of sport in mocking it.
    And I think the more we get it accurate, the more likely we 
get more buy-in from people, including the media, which often 
ignores this issue majorly. Look over there. We invited every 
single solitary press person we could think of, maybe if you 
are watching online, to be here to hear what you had to say, 
all five of you, and I look over and there is nobody at the 
press table. If we were talking about some more trivial matter 
that had a greater appeal to the media, they would be lined up. 
And this happens all the time. Yeah. Or if we didn't have a 
unity here on the legislation Ms. Bass and I have introduced 
and several others, including the chairman of this committee, 
they would be covering it. Maybe we should start something.
    But it is very disappointing because that lack of 
visibility in the media then diminishes the impact of 
everything we do.
    And finally, if I could, Mr. Gehring, just if you could, 
for the record, reiterate again just all of you if you would 
like to, how important it is to get the TIP Report right. It 
was a problem during the Bush administration. I think it became 
epidemic in those last 2 years of the Obama administration. And 
it is not like we said this in a vacuum. I invited the 
Ambassador-at-Large to testify.
    We had previous Ambassadors-at-Large testify about how 
politicization of the TIP Report was causing others--Thailand, 
when you would meet with the TIP leaders in Thailand they would 
say, why should we listen to you, although they were listening. 
When we look over at Malaysia and they get a bye because of the 
TPP.
    China which arguably is the worst trafficker on Earth in 
terms of the numbers. One reason being sex-selection abortion 
which has led to at least 61 million missing girls, because of 
that systematic evisceration of the girl child while still in 
utero. It is a magnet for trafficking like few other countries 
on Earth.
    India has a problem with that as well, but nothing like 
China. What they do vis-a-vis North Korea is an outrage. Women 
make their way into China and they are trafficked. We have had 
five hearings in this subcommittee about the trafficking of 
women from North Korea. They told their stories. They think 
they are relatively free now that they are on the other side of 
the border to be met by a broker who then sells her.
    So it is a violation of the Refugee Convention on the part 
of China and yet they are not Tier 3. That is absurd. No matter 
what we are working, in my opinion, with China on, trying to 
mitigate the crisis in North Korea or any other issue du jour 
with China it should not in any effect what the TIP Report says 
about the truth. And whether or not sanctions follow is a call 
by the administration.
    And I think when you use sanctions you increase the 
effectiveness of everything vis-a-vis TIP and the office. When 
you don't, people take note of that and say, hmm, sanctions are 
there, but they don't utilize them.
    So if you could speak to the importance again, and this 
would be to the administration now, we thought we had a meeting 
a couple of us with Secretary Tillerson, that was going to be 
my lead that in South Sudan, comments that I would make, get 
the TIP Report right. Listen to those experts at TIP. They eat, 
sleep, and breathe the human rights issue. And don't let the 
Assistant Secretaries and the bureaus shape it. Get it right 
and then move on from there. So those questions, if you could, 
and then I will yield to Ms. Bass.
    Ms. Becker. Mr. Chairman, thank very much for your 
question. I am happy to address in greater detail how the 
Frederick Douglass Reauthorizaiton Act will strengthen the 
Child Soldiers Prevention Act and address some of the problems 
that we have seen over the last few years in implementation.
    I think one of the most important aspects, as you 
mentioned, is the issue of waivers. Under the Obama 
administration we saw waivers being used in the majority of 
cases, and oftentimes used for countries that have made little 
or no effort to address their child soldier problem.
    You mentioned the situation in South Sudan, which is one 
that we are very concerned about. South Sudan was actually 
making some progress in ending the use of child soldiers until 
2013 when the current conflict erupted. Since that time that 
progress has completely unraveled, and we have seen child 
recruitment skyrocket. And yet, the Obama administration gave 
South Sudan waivers under the Child Soldiers Prevention Act for 
every year for 5 years.
    Another example is Yemen. Before the Houthis overthrew the 
government in 2014, the administration had given Yemen full 
waivers for every single year, despite virtually no effort by 
Yemen to address their child soldiers problem. So the Frederick 
Douglass Reauthorization Act, one of the most significant 
things that it does in this respect is require that if the 
President issues a national security waiver, that he certify to 
the appropriate congressional committees that the affected 
government is taking effective and continuing steps to address 
their problems of child soldiers.
    So this will be very important. It preserves some 
flexibility in the law. So the President still has the 
authority to issue waivers if he believes that it is in the 
national interest, but it creates much greater pressure on 
these governments to actually take concrete steps to end their 
recruitment and use of children. So that is the first thing 
that I wanted to address.
    The second thing, you also mentioned in your early remarks 
changing the definition of which forces would be covered by the 
act. Afghanistan has been a problem for the last few years. I 
mentioned that child recruitment in Afghanistan doubled between 
2014 and 2015.
    One of the parties that was recruiting children is the 
Afghan Local Police. This is an entity under the Ministry of 
Interior, completely government-controlled that has been 
recruiting and using children in active combat and in 
operations against the Taliban. And yet, because of the word 
``police'' in their name, and their status under the Ministry 
of Interior, the State Department has refused to consider 
Afghanistan as coming under the umbrella of the Child Soldiers 
Prevention Act.
    So the new amended definition that the Frederick Douglass 
Reauthorization Act provides will ensure that these loopholes 
don't allow some governments to escape scrutiny in the future. 
It will ensure that Afghanistan comes under the umbrella of the 
bill, which will be very important.
    A third important provision of the Frederick Douglass 
Reauthorization Act is to specify a timeframe of 45 days after 
the State Department issues its list of what governments are 
involved in the use of child soldiers, the Secretary of State 
will have 45 days to notify those governments that they are 
subject to the Child Soldiers Prevention Act and possible 
withholding of military assistance. And that notification 
period is really important and an important improvement.
    And then finally, the original Child Soldiers Prevention 
Act only required annual reporting on implementation for the 
first 5 years of implementation. We have passed that date. And 
yet, we need to know how the law is being implemented. And very 
significantly the Frederick Douglass Reauthorization Act will 
not only continue to require annual reports, but it will also 
require much more transparency over what amount of aid has been 
allowed to go to countries using child soldiers under the use 
of waivers and how much has been withheld.
    And that is going to be of great use to both Congress and 
the public to be able to tell whether this law is being used 
for its intended purpose or not.
    So these are four very important improvements that are 
being put forward in the new act. Thank you.
    Ms. Sperber. Thank you, Mr. Chairman for those important 
questions. We at ATEST agree that we are lagging in all three 
Ps. And so we certainly encourage the U.S. Government to 
continue their emphasis on prosecution, protection, and 
prevention. And yet we are so pleased to see the committee and 
the bill's sponsors put an emphasis on prevention which we see 
as being really the greatest gap in our work on human 
trafficking in the United States and overseas.
    We also agree we could do more to raise awareness and that 
we should be doing more. We would point to a huge critical 
opportunity to focus on the risks of trafficking within global 
supply chains of both labor and sex trafficking. We would look 
to programs like The Coalition for Immokalee Workers' Fair Food 
Program as an excellent model in the United States, and also 
increasingly recognized worldwide as one that would reduce risk 
for trafficking and put workers and survivors squarely at the 
center of enforcing those mechanisms.
    We also believe public-private partnerships are 
instrumental in raising awareness, and would look to efforts 
like the Blue Campaign, which has had real positive impact in 
raising awareness around the United States.
    Most important for us, though, we want to see that where 
awareness is raised, there are complementary efforts to invest 
in services, to ensure that those survivors who come out of the 
shadows to demand services because of this awareness are met 
with a specialized response to their very significant needs.
    And so we see increasingly that where there are awareness 
efforts made there are demands for services, and that is a 
consequence of the success of those efforts. But we also see 
that service providers have increasing wait lists and that they 
don't have the training and capacity they need to meet that 
demand. And so we would hope to see that balance achieved as we 
move forward.
    On prevention, we absolutely agree with you that it is so 
necessary to address the root causes of trafficking, which are 
so complex and rest on so many different interrelated forms of 
exploitation, whether it is discrimination, gender, gender-
based violence, or the criminal justice system's impact on 
youth, particularly those of color, those who are coming out of 
systems like foster care and child welfare that are putting 
them at greater risk rather than strengthening them and 
reducing their vulnerabilities.
    And so we hope to see more attention and investment paid in 
those root causes. There are two areas that we see as 
promising. The first is the integration of trafficking within 
other programs. Things like what is happening at USAID, where 
they have implemented counter trafficking in persons policy 
that is applied across the agency. We are very pleased to see 
the provisions in the reauthorization to increase transparency 
around those expenditures at USAID so we have a greater 
understanding of the impact that they are achieving, where 
there are gaps, and what we can do to better address those 
gaps.
    We also want to ensure that within the humanitarian context 
nothing is done to inadvertently heighten the risks of 
trafficking. We saw some risk of that after the earthquake in 
Haiti. And it was so wonderful that there was a supplementary 
appropriation made that enabled the State Department to focus 
specifically on trafficking. We would hope to see that happen 
after disasters, whether manmade or environmental, in the 
future, because we do know that vulnerability goes up in those 
crisis situations.
    And then finally, I would note the importance of listening 
to the U.S. Advisory Council on trafficking. The survivors who 
have been appointed to that council are incredible experts and 
they point to prevention and the need to address root causes. 
And so I think that if we have all of the expertise and the 
evidence in place to tell us that this is really the direction 
we can and should be going in.
    And then on your point on data, Mr. Chairman, it is so 
difficult to get ahold of the scope of this crime because it is 
underground and because it is in the shadows. And we have 
suffered, as you noted, from numbers that have misinformed the 
direction that our policy should go in.
    We see two promising ways or bright spots that we can look 
to. The first as you noted, is the International Labor Affairs 
Bureau at the Department of Labor. We see it as really a gold 
standard in terms of their approach to monitoring and 
evaluation. And we believe we can really look to the efforts 
that they have made that have touched nearly 2 million children 
worldwide in reducing their vulnerability. We hope to see a lot 
of practices they have put in place to measure the investments 
that they have made in combating the worst forms of child labor 
replicated in other agencies and on other programs.
    And then finally, we are looking forward to the work that 
the End Modern Slavery Initiative will achieve. We were very 
supportive of the bill that came out of the Senate Foreign 
Relations Committee last year and grateful for the leadership 
of that committee and then of Congress in authorizing EMSI and 
the National Defense Authorization Act. And we believe that 
EMSI's focus on measuring impact and looking especially at the 
regions and industry where trafficking has the highest 
prevalence will yield real lessons for us on where we can go 
next and how we can better inform the direction of our 
investments, make them more effective, learn what we can do to 
scale and replicate what is working, and learn from what is not 
working.
    And so, I do think we have some ways that we can hopefully 
overcome this Achilles heel that has been plaguing this field 
and that hopefully in future iterations of this hearing and of 
TVPRA reauthorizations we will be able to bring forward really 
credible data that will not only inform policymakers like 
yourself, but also the public and the media so that they can 
report on what we believe is one of the most consequential 
human rights violations of our generation. Thank you.
    Ms. Saada Saar. Thank you, Mr. Chairman----
    Mr. Benz. Mr. Chairman, first of all, I have say I love 
your passion on this subject. I am very passionate about this 
subject also.
    And of course it would come as no surprise as someone who 
founded an organization in his name. I am very excited that you 
have decided to name the Trafficking Victims Protection Act 
after Frederick Douglass.
    But I really believe the addition of the word prevention 
can change the paradigm of how we approach this issue of human 
trafficking, not only in the United States, but all over the 
world.
    We have been thinking about this for a long time. I stay up 
nights thinking about this and how we can create a systematic 
approach to prevention so that we have children that are living 
free of this problem. We have addressed it in four ways with a 
program that we launched in California last year called 
PROTECT. I will just go over real quickly what those four 
components are.
    First of all, we start with a protocol that community 
members agree upon, law enforcement, service agencies, NGOs, 
schools. This allows everyone to get on the same page. In my 
experience in addressing this issue across the United States, 
communities have not necessarily been on the same page when we 
are approaching this issue.
    We have relied in a lot of ways on law enforcement and 
service agencies to take the lead and do the work on this 
issue, where faith-based organizations and schools and parents 
have been asking the question how can I help? What can I do? I 
want to make a difference in this field. This is a way of 
starting.
    The next component is training, training teachers, and 
training professionals in the community on this subject because 
those that are supervisors of young people are first 
responders. And if we are able to identify this early enough, 
we can reduce the amount of harm that is done and help someone 
get out of this sooner.
    The next piece is education. And we start education in 
grade 5. Again, this is a general approach to knowing who is 
allowed in your own boundaries. We go to 7, 9 and 11. We want 
young people not only to understand the nature of human 
trafficking, but we also want them to understand the historical 
connection to slavery.
    This matters in a lot of ways, not only so they can see the 
connections between historical slavery and human trafficking, 
but also so they can see that this problem of slavery has 
plagued human kind for thousands of years and there is not 
necessarily a solution available that is going to make it 
disappear overnight. And so we can convince young people that 
this a long-term approach and how do we approach it in the 
long-term.
    The last piece is research. We have a University partner in 
our California project, Sacramento State University and they 
are helping us create new data. One day we will be able to do 
it, create correlations between how much education and training 
we do equals X amount fewer of people that are trafficked in 
our community.
    We don't know that number because we don't know how many 
people are trafficked in our community today. So we are 
starting with gathering data that allows us to understand that 
young people understand material, teachers understand material, 
and we can find out how we have reduced the vulnerability of 
children to this issue, to this problem and, to this threat in 
our communities.
    So that is the way we envision how the addition of 
prevention and a new focus on prevention can change the 
paradigm of what we are doing on this issue.
    Ms. Saada Saar. Mr. Chairman, you and I have a very deep 
abiding belief in human rights. And as a human rights lawyer 
what I have learned, what I have been taught, is that the abuse 
is maintained and continued if there is impunity. And right now 
we deal with the situation of impunity in the way that our 
children in this country are purchased for sex.
    In most situations when children are purchased for sex, the 
buyer is not even arrested. And when the buyer is arrested, it 
is usually on solicitation misdemeanor, not on any form of 
child sexual abuse. We continue to contemplate this issue 
within the context of vice and prostitution. Even though it is 
happening to these kids has nothing to do with vice or 
prostitution. This is a form of child sexual abuse. And yet, 
the perpetrators are not treated in that way.
    We have created a legal distinction and a cultural 
distinction between raping a child and paying to rape a child. 
And in the latter instance, there is full impunity for that 
crime. I have come to believe very deeply that if we want to 
stem the epidemic of child sex trafficking in this country we 
must begin to understand this and enforce this as statutory 
rape. We cannot continue a situation where when buyers purchase 
our children they are set free or simply receive a slap on the 
hand.
    If we begin to prosecute buyers for statutory rape, for 
sexual assault of a minor, if we put them on the sex offender 
registry. If we recognize that what they do in any other 
context is recognized as child rape. If we create these new 
norms of understanding that this is not about child 
prostitution, that this is child rape and the perpetrators have 
to be treated accordingly, that is when we will see a shift.
    And until then, I don't think that anything will have the 
same impact. This is about a culture of impunity that allows 
these human rights abuses against our children to continue.
    Mr. Smith. Thank you so much for that.
    And all of your points were extremely well taken. When we 
were working on the definition, and the Palermo Protocol 
couldn't be clearer, that anyone who has not attained the age 
of 18, which is our definition as well, by definition if just 
one commercial sex act that person is a trafficking victim. 
Unfortunately, many of our local jurisdictions don't recognize 
that. And since most of the prosecution is at the local level, 
you are right, the solicitation charge as opposed to the child 
rape charge is what sticks. And I think that culture has to 
change and has to change immediately.
    The law on the Federal level I think gets it right. We can 
always do more, but we need to be admonishing the States to 
comport to that definition as quickly as possible. Many have in 
their State statute like New Jersey's, but we need to do more. 
Thank you for that admonishment.
    Ms. Bass.
    Ms. Bass. Well, let me thank all of the panelists for some 
outstanding contributions to this issue.
    I wanted to begin with Mr. Gehring. You have said that you 
have seen a difference in how the report and the ranking and 
the tier level actually makes a difference. And I was wondering 
if you could expand on that some more. And along with that, I 
wanted to know--you also mentioned that the ranking, the tier 
ranking was political in some instances. And with that in mind 
I wanted to know what your opinion of the U.S. ranking is?
    Mr. Gehring. Thank you for the question, Ms. Bass. I do 
want to be very clear about one thing, I think that for the 
most part the Trafficking in Persons Office and the TIP Report 
gets it right.
    Ms. Bass. Right. That was clear.
    Mr. Gehring. I think that they do a tremendous job on the 
majority of the rankings, and especially the narratives. And 
the dedicated staff at that office represent the very best of 
American ideals and values.
    I would also say that the 2015, 2016 report, those were 
quite controversial on especially a few countries.
    So I would also caution against this upcoming report being 
vindictive against those past years, right? Because that 
perpetuates the politicization of the report. So we don't way 
to say, well, we didn't those guys on Tier 3 last year or, 2 
years ago, but we are going to get them this year. I don't 
think that is helpful.
    And the tension that exists between the regional bureaus 
and the Trafficking in Persons office is a natural one, right? 
The regional bureaus are dealing with broad----
    Ms. Bass. My question was you said that you have seen where 
the report makes an actual difference. And I was wanting to 
know if you would give me some examples of where you saw it 
makes an actual difference.
    Mr. Gehring. Yes, we have an office in the Philippines that 
for 12 years focused on commercial sexual exploitation of 
children. And 7 years ago the Philippines was ranked on the 
Tier 2 Watch List. And based on our experience, based on the 
case work that we worked in partnership with the Philippines 
National Police, children were openly exploited.
    But that government has made tremendous progress on 
addressing commercial sexual exploitation.
    Ms. Bass. What does he do, kill everybody?
    Mr. Gehring. Not withstanding many of the other human 
rights abuses that still exist in the country. So I think that 
is an important distinction to highlight is that we don't have 
to wait until a country solves all of its poverty or all of its 
human rights abuses before it can start protecting children. 
And we have seen the Philippines do a tremendous job on that 
specific crime.
    Last year in the 2016 report, they received their first 
Tier 1 ranking which we believed is an appropriate ranking 
based on the progress----
    Ms. Bass. But did you think they made that progress because 
of their ranking in the report?
    Mr. Gehring. Indeed. In 2010 when they were at risk of 
losing a significant amount of foreign aid, this is anecdotal 
evidence, from our case work in our offices there, we had the 
Philippines Government coming to our offices there asking what 
can we do to improve our tier ranking? What actionable steps do 
we need to take? And I think that is where the TIP Report can 
be extremely useful. That is what you want the TIP Report to 
do. It is a tool that is used to spur government to action. It 
is not the end result in itself to get a country onto a Tier 2 
Watch List or on Tier 3. You want that to be a prod for them to 
make concrete and credible evidence on how they are protecting 
citizens.
    Ms. Bass. And our ranking, the U.S.?
    Mr. Gehring. I appreciate the question, but I would 
actually probably defer to my other panelists who work on 
domestic issues. IJM's expertise is on international issues, 
but I think there are many others on the panel who can speak to 
the U.S. Government's ranking.
    Ms. Bass. Ms. Becker, you were talking about child 
soldiers. And you mentioned two countries that Obama waived, 
you mentioned South Sudan and Yemen. What exactly is the 
waiver? What does the waiver say? Do you know?
    Ms. Becker. Sure. Thank you Ranking Member Bass.
    So the waiver provision allows the President to invoke 
national security interests to basically bypass the prohibition 
that is in the Child Soldiers Prevention Act.
    So with no waiver it means that certain categories of 
military assistance are automatically withheld from a 
government that has been listed by the State Department of 
being involved in the use of child soldiers. But if there is a 
waiver from the President, it means that that assistance, 
whether it is foreign military financing or military training, 
or direct commercial sales is allowed to continue, even if the 
country has taken no action to address child soldiers.
    Ms. Bass. So in your experience with child soldiers, short 
of kidnap or force, what drives them, what drives the children 
to become child soldiers?
    Ms. Becker. That is an excellent question. What we have 
seen in our research at Human Rights Watch is that there is a 
whole continuum of ways that children end up in governmental, 
armed forces, paramilitaries, or rebel groups. So at one 
extreme you have children who are literally abducted from their 
homes, abducted from their schools, threatened with death if 
they don't join.
    In other cases, we see children who are coerced, or 
threatened, or, for example when I did research on Burma, I 
found that there were boys that were told that if they didn't 
have an identity card, they would have to go to jail. But if 
they didn't want to go to jail they could join the army 
instead. And that actually wasn't true, but it was a form of 
coercion to make these boys choose the army.
    In some cases, children, especially if they have seen 
atrocities against their family or against their community, may 
be motivated to join armed groups or armed forces out of 
revenge. They want to protect their community. They want 
revenge for abuses against their loved ones.
    Then you also have children who are lured in by promises. 
Promises of salary, promises of education, lured by status, 
wanting to be seen in the uniform or carrying weapons, maybe 
they see others in their community who have joined. But 
oftentimes these children have no idea of what the reality of 
military service is or the kind of danger they will find 
themselves in.
    Ms. Bass. Human Rights Watch looks at conditions in the 
U.S., correct?
    Ms. Becker. That is right, we do.
    Ms. Bass. Do you look at gangs in the U.S. and why children 
here join gangs?
    Ms. Becker. Human Rights Watch has not looked at youth and 
children joining gangs in the United States, but there has been 
excellent research by other organizations that draws the 
parallels between children who join gangs and children who join 
armed forces.
    In Brazil for example, children who join the gangs in 
Brazilian favelas, their profile is very similar to what you 
see for children joining armed groups in conflict countries. 
And in fact, their mortality rate is higher than in many 
conflict countries.
    Ms. Bass. Well, it is interesting how we view child 
soldiers in other countries than the level of empathy and 
concern, but what draws kids to join, the ones that aren't 
forced we--what happens in our country we don't seem to have--
we don't look in that same way at all.
    Where I know that one of the things that draws kids to join 
gangs in communities is their safety. It is a job, it is 
employment, surrogate family, kids that fall between the 
cracks. But our view here is to incarcerate them as opposed to 
address the root cause reasons for them joining a gang.
    Ms. Saada Saar, you talked about trauma informed care. I 
was wondering if you could describe what trauma informed care 
means?
    Ms. Saada Saar. It is a term that does get tossed around 
very loosely. I think what the elements that I consider to be 
critical to trauma informed care is that we are not talking 
about getting a bunch of girls to do yoga classes and that 
counts as trauma informed care, or to make jewelry.
    Trauma informed care is about involving a comprehensive 
systematic approach to healing and well-being. And so when we 
think about a comprehensive approach, it is not a 30-day 
program. It is a program that stretches out from 6 months to a 
year that is both intensive and has aftercare, that is 
inclusive of professionals, as well as those who are peer 
counselors. That type of comprehensiveness, that type of 
recognition that the process of healing is not short term but 
long term. The recognition that healing can only happen when 
there is the stabilization of the individual.
    Trauma informed understands especially in this context that 
it is not only about healing from the sexual violence, but 
again from the condition of being made into property.
    Trauma informed care for our children I think also has to 
have a very keen eye toward the need for educational 
resiliency. That we are talking about girls who instead of 
going to school have been bought and sold. Boys who instead of 
being in school have been made into the sexual property of 
another. It is critical that as part of a healing process that 
is comprehensive and trauma informed, that they be able to 
reclaim themselves as learners, that they be part of an 
educational process that allows them to be whole and to thrive.
    Ms. Bass. So I am going to ask you in a minute what you 
think of our ranking on the tier system. But I want you also to 
talk about the child welfare system, because one of the 
problems I have with us here is the definition of child abuse 
and child neglect, it has to be a caregiver, a parent. And if 
you are a pimp you don't fall into that system, therefore the 
girls or the boys do not receive the same type of protection.
    And over the last few years we have tried to change that. I 
don't know if the work we have done here has actually worked, 
has actually been implemented, meaning in cities and States. If 
we view the children who are trafficked--we send them to jail, 
we arrest them and view them as prostitutes. And in some places 
like Los Angeles for example we are not doing that anymore, 
supposedly.
    So my question is about how we view by definition who these 
children are. Are they now being considered as part of the 
child welfare system or are they still falling through the 
cracks?
    Ms. Saada Saar. I think there is a real need to do an audit 
around that. I don't think we know. And I think it is 
absolutely critical that we be able to understand whether or 
not the law that was changed to recognize that, it is not only 
abuse by the caregiver or legal guardian but that the 
trafficker has to be contemplated as having some form of 
custody over the child and that the child has to be recognized 
as being under the purview and protection of child welfare 
services. We have to get at that.
    I know that when we look at certain States that made that 
change, for example in Florida, we did see a real 
implementation of how to ensure that children who were being 
trafficked were in fact contemplated as child welfare kids.
    I think the other piece that is important to surface when 
we talk about child welfare is that not only must child welfare 
take responsibility for our kids who are being bought and sold, 
but it is also important to look at this issue of multiple 
placements.
    Ms. Bass. Right.
    Ms. Saada Saar. Because it really is the multiple 
placements that especially our girls endure that render them so 
absolutely vulnerable. What is happening that a girl can be 
subject to anywhere from 10 to 14 placements?
    Ms. Bass. I have met girls that were placed 66 times.
    Ms. Saada Saar. It is unacceptable. And so I think part of 
how we talk about reforms to child welfare we have to center it 
around ensuring that our children who are bought and sold are 
in fact protected under child welfare. But we also have to get 
to this issue of multiple placements.
    And then I think the other piece that is really important 
here that speaks to criminalization is that if we see the kids 
under the protection of child welfare, that child welfare ought 
to have influence and guidance in what happens to the girl as 
opposed to the juvenile justice system. Right?
    That if we really do recognize that the girl is being 
abused, that that is in the purview for child welfare as 
opposed to juvenile justice. And what we have seen happen way 
too often is that our children who are being bought and sold 
are being displaced into the juvenile justice system as opposed 
to child welfare or the public health system generally.
    Ms. Bass. I think what is so powerful about this to me is 
the statistics you said from 50 to the 90 percent, if you are 
in the child welfare system, the government is your parent and 
the government is responsible for you. So if you get trafficked 
and you are under the care of the government, that is a whole 
other ball game than a random child that is kidnapped or a 
random child on the street.
    And the government doesn't have any responsibility for 
that, which is why I raise where is our ranking on the tier 
report. Considering we rank ourselves, we rank ourselves best, 
which I think that is really a major contradiction that we need 
to look at ourselves a lot more.
    I wanted to ask you about the type of services girls from 
the foster care system might need that might be different from 
a woman or a child that was from another country and was 
trafficked for their labor. Can you lump it all together and 
can you provide services to the person from another country who 
was labor trafficked and a girl in foster care, is it all the 
same in terms of service provision?
    Ms. Saada Saar. It is not all the same. And I think we make 
a real mistake in conflating all of those conditions. I will 
say to you that what is very clear to me is that our girls--and 
it is mostly girls--who are at the intersection of child 
welfare and child trafficking are also involved in juvenile 
justice. And so when we talk about child sex trafficking in 
this country, it includes those systems that have been very 
dangerous for our kids. That is not true with labor 
trafficking, right? There isn't necessarily the involvement in 
criminalization or the experience of being in child welfare 
made vulnerable because of multiple placements and then sold.
    It is important to acknowledge, and it is not at the 
exclusion of understanding--this is not an Olympics of 
suffering, it is simply to say that there are distinct 
experiences and particular interactions with certain child-
serving systems that are failing our kids that are part of the 
experience of child sex trafficking that we have to be able to 
distinctly address if we want our kids to heal.
    The experience alone of a girl who has been put into 60 
placements or more, then bought and sold and then arrested on 
charges of child prostitution is a particular experience of 
suffering, it is an indictment on our child-serving systems 
that we must be able to address in a very distinct and 
comprehensive way.
    Ms. Bass. So here we are in DC, and there has been a number 
of reports lately about missing girls. In California, there is 
a Web site from the child welfare system where you can see the 
missing children.
    What is the situation in DC, if you are familiar with it? 
There are a number of girls, they don't know where they are.
    Ms. Saada Saar. Look, you know, there is a deep belief that 
I have that because of the age of those girls, because of the 
vulnerability of those girls, that they are the girls who are 
being bought and sold in this city. I have met too many girls 
here and throughout the country who have run away from home 
because of abuse at home or in the foster care system. They are 
considered runaways, but there is not enough effort to look at 
what has happened to them to understand that those runaways are 
the girls who are being bought and sold.
    And it saddens me that the majority of those girls, whether 
here or other parts of our country are Black and Brown girls. 
And that too often there are ways that when Black and Brown 
girls are subject to violence, to sexual violence especially, 
they are not construed as victims. They are construed and 
criminals, as child prostitutes.
    And so I really hope that we can instead of casting off the 
missing girls in DC as just runaways who don't want to be home 
anymore, we can understand that those girls stories are so 
representative of what we see everywhere. That those girls are 
the vulnerable girls who are being trafficked and who are not 
bad girls, who are not simply to be dismissed as runaway girls, 
who are girls in places of extreme sexual violence. And they 
have to be acknowledged for the kind of vulnerability and 
suffering that they are in right now.
    Ms. Bass. And frankly, if a girl runs away, that doesn't 
mean that she wants to be trafficked. You can run away and wind 
up in circumstances that you didn't plan on being in.
    In Los Angeles we had a situation, these were not girls, 
they were women, who had been missing. And the community 
organized and begged the police department to search for the 
women, and after a while began to believe that was a serial 
killer. No one believe the community for about 10 or 15 years. 
They just convicted the guy who continued to kill for 10 to 15 
years more and found out that in fact there was a serial 
killer. I think it was over 30 women that were killed.
    So I will just conclude by asking you about what our 
ranking is on the tier system.
    Ms. Saada Saar. Well, I hope that we can reexamine that 
ranking in light of the criminalization that happens to our 
kids who are being trafficked. It makes no sense to me that in 
this country we are in a situation, especially against the 
legal backdrop of the TVPA that recognizes a minor who is 
involved in commercial sexual exploitation is per se a victim 
of trafficking.
    I don't understand how it can be allowed that in any State 
or locality, especially those drawing down on TVPA funding, 
that there is any situation of one child being arrested on 
child prostitution charges. The idea that in this country we 
are criminalizing our children who are being subject to 
commercial rape is unacceptable, is a human rights violation.
    And I think the other area of my concern as it relates to 
our ranking is not only the criminalization of our children who 
are being exploited, but also as we talked about the full 
impunity for those who are raping our kids. Any situation again 
where we have individuals who in another context would be 
considered to be committing statutory rape, but in this context 
of purchasing a child and raping that child, and given full 
impunity, we have to interrogate the norms around that.
    We have to ask why have we allowed a culture of impunity 
around what happens to these kids? And how are we not holding 
ourselves more accountable to that and ending that if we are 
Tier 1?
    Mr. Smith. I would like to yield to Ann Wagner. And thank 
her for taking the time to come out.
    She is the sponsor of a new bill, the Allow States and 
Victims to Fight Online Sex Trafficking Act of 2017. Last year 
she was the author of the SAVE Act, which became a law. And I 
would point out that Karen Bass was the author of the 
Strengthening Child Welfare Response to Trafficking Act, which 
also became law.
    So Ms. Wagner, please proceed.
    Mrs. Wagner. I thank you, Mr. Chairman. And I thank the 
ranking member too who has been a tremendous leader on this 
issue and so many things that we have all worked collectively 
to champion.
    I am grateful for this hearing and to have the opportunity 
to visit with the witnesses and just thank you all for working 
so tirelessly to complete the Frederick Douglass Trafficking 
Victims Prevention and Protection Act.
    The lifelong work to combat human trafficking is an 
inspiration to me personally. And I am grateful for the 
opportunity to be an original cosponsor of this legislation. It 
is fitting, I think, that the bill is actually named after 
Frederick Douglass, a great pioneer of liberty and humanity. A 
true leader who, to this day, continues, I believe, to teach us 
about the meaning of justice.
    It is my particular honor to offer an amendment that will 
ensure that countries on the TIP Report's Tier 2 Watch List 
take concrete actions to combat human trafficking. I had the 
great privilege of serving as a United States Ambassador in 
Western Europe from 2005 to 2009. And as a former U.S. 
Ambassador, I worked a great deal on numerous TIP Reports.
    And so, I will be offering this amendment at markup. It 
will also require the State Department to justify a country's 
ranking, linking its actual actions to the minimum standards 
enumerated in section 108.
    Together, we will strengthen the TIP program and hold 
countries accountable for enabling human trafficking. I believe 
that the passing TVPA, which has been with us so proudly since 
the year 2000, and this is year 2017, is going to help prevent 
vulnerable members of our society from being victimized in the 
first place and helps more survivors successfully reintegrate 
into normal life.
    I thank you again, Mr. Chairman, for your leadership and 
for advancing what I believe is our global mission both 
international and domestic to eradicate modern slavery.
    Ms. Sperber, as you know, I have introduced the Trafficking 
Survivors Relief Act, which will give trafficking victims a 
pathway to petition the courts to have their criminal records 
cleared for offenses that were a direct result of being 
trafficked.
    How important are vacater laws to helping get survivors 
back on their feet?
    Ms. Sperber. Thank you so much for the important question, 
Mrs. Wagner, and for your services as an Ambassador in Western 
Europe, and your leadership on human trafficking.
    I think the importance of vacature laws is immeasurable. As 
Malika so articulately described, there is a need for 
comprehensive trauma informed services. And I think a part of 
the spectrum of services that we need to offer to survivors 
includes legal services for not only vacating convictions, but 
for defending survivors if there are criminal charges pending, 
if there are civil needs for restitution, or immigration 
services.
    But importantly, in order for those legal services to have 
a path forward, the Trafficking Survivors Relief Act needs to 
be enacted. Because right now, survivors are really impeded 
from healing if they aren't able to obtain employment, and if 
they still carry with them the charges and the convictions that 
are a direct result, as you said, of their victimization by 
traffickers.
    And so, we really hope to see that law enacted because it 
will be transformative for survivors. We know that there are 
survivors who, as one survivor has told me, has a conviction 
that is like a life sentence because she can no longer get 
gainful employment. She has been afforded opportunities that 
are then taken away from her because of these convictions, 
which were as a result of her having been trafficked across 
multiple State lines as a child.
    And so, we need to enable them to overcome those 
convictions. And I think the Frederick Douglass Reauthorization 
is a really amazing complement to the Survivors Relief Act 
because it also affords Health and Human Services the 
opportunity to provide additional support for survivors who are 
seeking professional development, whether it is on resume 
creation or vocational skills, a whole range of services that 
will be a really important complement to the Survivors Relief 
Act.
    Mrs. Wagner. I thank you, Ms. Sperber. And I agree 
wholeheartedly. Having met with so many survivors that are 
suffering, whether it has to do with employment, housing, going 
back to school, vocational training, credit, things of this 
nature, the relief act will apply to noncriminal offenses and 
give the court the opportunity to vacate those offenses that 
really pertain specifically to them being victims of 
trafficking.
    Things like the Mann Act. It could be money laundering. It 
could be there are new prostitution. There could be numerous 
charges of a noncriminal offense that most of these women or 
sometimes children carried over, still carry on their record 
and have been prohibitive for them as they try to turn that 
page as a survivor and start a new life.
    I am very hopeful that we will be--not just introducing but 
seeing this bill for the first time on the House in late May. 
We are excited about the opportunities there to move this and 
advance it forward.
    Mr. Gehring, I salute IJM's phenomenal work. And I am 
wondering whether there are specific places around the world 
where you see political will mounting to address sex 
trafficking and forced labor. What are the primary obstacles 
facing countries also on the Tier 2 Watch List in seriously 
combatting trafficking?
    Mr. Gehring. Thank you, Congresswoman Wagner, and thank you 
for the kind words about IJM.
    Your question on where we see political will building in 
countries. I mentioned the enormous progress that the 
Philippines has made. I would echo that to Cambodia as well and 
their ability to address commercial sexual exploitation of 
children. And this is not to say that the issues are solved in 
these countries right?
    Cambodia still needs to maintain the gains that they have 
made and also address cross border labor trafficking. The 
Philippines faces a rising criminal industry of online sexual 
exploitations. These are two examples where we see our partners 
in the government have made significant steps on addressing a 
certain type of trafficking.
    I think that political will is to be applauded. And I think 
it is important that the TIP Report, as a tool, not only just 
name and shame countries, but also recognizes the progress and 
the gains that have been made. Lest countries get weary of 
always being pointed out and not given credit for the progress 
that they have made.
    Mrs. Wagner. What are some of the other obstacles, and I 
open it to any of you that you think faced these countries on 
the Tier 2 Watch List from moving forward and combatting 
trafficking?
    Anyone else have a comment on that?
    I will move on. And, Mr. Benz, we both know that education 
and awareness are critical to ending human trafficking in 
America. How can the U.S. better support education and training 
programs that promote prevention and detection?
    Mr. Benz. Well, I think that funding is a big part of this. 
There has not been, as far as I know, since the TVPA of 2000, 
any significant funding for prevention education. There has 
been training for professionals. There hasn't been significant 
training for educators.
    So I think funding is a big part of it, and I think that 
understanding the value of bringing education into public 
schools will be helpful, and I think the naming of this bill is 
a big part of that, beginning to reframe how we address this 
issue, not just from a law enforcement point of view and a 
survivor service point of view, but from a preventative 
standpoint as well.
    Mrs. Wagner. I thank you. And I am going to close, Mr. 
Chairman, on a story about one of my many efforts toward 
education and awareness when it comes to what I call modern day 
sex slavery.
    I am not one who believes that we can legislate away 
society's ills, that education and awareness are absolutely 
critical, in all areas, whether I am dealing with hotels and 
convention bureaus, whether I am dealing with different 
transportation outlets. I just did a great event with Truckers 
Against Trafficking, and NATSO. I am a big believer in dealing 
with those that on the frontlines, our hospitals, our nurses, 
our emergency rooms. So many I think across our country that 
need to have the kind of education and awareness, and I believe 
it extends to our educators, too.
    I had the great privilege, Mr. Chairman, a year or so ago, 
of pulling together every single public school in my district, 
Missouri's 2nd Congressional District. I first started with the 
superintendents and then set up a program of training. The 
Department of Education came out, along with others in the 
industry, did two sessions. They were attended by about 50 each 
of frontline high school and junior high personnel.
    These were school nurses and counselors and teachers and 
others that came from the educational sphere. There were 
private schools and every one with I think the exception of one 
of our public schools was there in this day of training, two 
different sessions, where we talked to the educators about the 
signs to look for in terms of who may fall victim and prey to 
human trafficking. We talked about the services that were 
available. We talked about then ratcheting it up to programs 
where we are not just doing programs and assemblies on bullying 
and safe space and things of that nature, heroin, cocaine, 
things that are very important, opoid abuse, but also on sex 
trafficking, so that children can be safe and that they are all 
aware of what is out there.
    In every single one of our communities, in every single one 
of our cul-de-sacs, the scourge of sex trafficking lives, and 
it is absolutely untenable in the United States of America that 
this happens every single day to our children, to our women, to 
our girls, to our boys.
    So I am a big believer in education and awareness. I will 
continue to put forward good commonsense legislation and hold 
our agencies like the Department of Justice, Mr. Chairman, and 
others, accountable for the laws that are signed by our 
President. I have legislation signed by President Obama, and I 
hope to have future legislation signed by President Trump.
    But education and awareness are very key. And I think it is 
incumbent upon leaders like myself and my colleagues to use the 
tools that are out there and bringing people together to keep 
our children safe.
    Yes, Mr. Gehring.
    Mr. Gehring. Just in relation to your question about a Tier 
2 Watch List, and forgive the delay, and also in relation to 
the amendment that you plan on offering specifically around 
concrete actions, I think that is extraordinarily important. 
And I think what is especially helpful too is to define what 
concrete actions are, what credible evidence is, and I think 
that within that you will get to a diagnosis of what you are 
hoping to get is what do the Tier 2 Watch List countries 
struggle with?
    And, indeed, it is probably what countries on the Tier 2 
Watch List, Tier 3, and indeed, also in Tier 1, that would say 
some indicators for that are, are there active investigations 
being conducted? Are there arrests? Are there convictions? Are 
trainings being provided? Are services to survivors being 
provided? Those are very tangible things that I think should 
guide the tier rankings of each country, and I think that those 
actions within that list are what Tier 2 Watch List and many 
other countries struggle to do well.
    Mrs. Wagner. You are absolutely right. I thank you very 
much, Mr. Gehring.
    And I thank you again, Mr. Chairman, for your leadership.
    I thank the ranking member for letting me follow her in her 
questioning, and without further adieu, I better head back over 
to my Financial Services Committee, so I thank you all so very 
much for what you do.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mrs. Wagner, for your 
leadership and for taking the time to be here.
    Mr. Gehring, I think you made an excellent point about the 
Philippines when asked what country has the TIP Report and the 
threat of sanctions, as well as all the positives, technical 
support that is provided on how to craft good policy working 
with our Embassy and with the TIP office.
    Piero Tozzi and I after the typhoon hit in 2013, November 
2013, Haiyan, went over there. I led a congressional 
delegation. Our military did an extraordinarily good job. The 
Abraham Lincoln was there, the military. The Marines were there 
providing food, clothing, shelter.
    But everywhere we went, we went with two cabinet officers. 
I obviously, as did Piero, brought up trafficking in persons. I 
was amazed the impact that the U.S. Government has had by being 
faithful in defending, and working on behalf of, potential 
victims, particularly children, how clued-in the leadership was 
of the Philippines.
    So the TIP office, for the record, and the TIP Report I 
think has a very laudatory, you know it was Natan Sharansky who 
said you can't fight a human rights abuse if you don't first 
chronicle it and do it with great, great accuracy. So that is 
why the accuracy issue is so important, as you pointed out.
    I would note for the record that in the early years of the 
TIP Report, which as you all know has prescribed minimum 
standards which we have updated and made stronger and better 
over the years, both Israel and South Korea were on Tier 3, 
subject to sanctions where they could lose security aid and 
other kinds of assistance, two of our closest allies in the 
world, the Bush administration put them on Tier 3.
    And I met with the Ambassador to Israel frequently and the 
South Korean Ambassador who wanted to get off tout de suite, as 
quickly as they could get off it. And they took very, very 
significant actions.
    The South Koreans passed a number of laws that looked just 
like ours, and perhaps even better in some cases; and the 
brothels in Tel Aviv and elsewhere in Israel were shut down, 
and the women who had been exploited were liberated.
    It shows that it works, so another couple of examples. But 
it has to be, that is why our appeal to the new administration 
is, as we did to the previous administration which fell on some 
deaf ears, get it right. Just tell the truth. Speak truth to 
power. And all five of you have done so very, very effectively 
today to this subcommittee and by extension to the Congress and 
American people.
    So I want to thank you so very, very much, and again 
getting back to your original testimony, Mr. Benz, when you 
said knowledge makes a man unfit and, of course, we would add a 
woman as well, unfit to be a slave, and that it is easier to 
build strong children than to repair a broken man or women. 
Thank you for your testimony and your leadership.
    And tomorrow in this committee here, we will mark up the 
bill. It has been referred to several other committees. We will 
be working with the chairman and the subcommittee chairman and, 
of course, Kevin McCarthy who has a very strong and passionate 
heart for ending human trafficking to get this bill on the 
floor as quickly as possible.
    The original TVPA, Trafficking Victims Protection Act, was 
referred to 4 committees and 11 subcommittees. Many thought 
that was the death knell for it because we would never get it 
out of these committees, but we did just by working 
painstakingly with the leadership. And one by one it was 
released, either waived or marked up, and this bill will move, 
I think, very, very quickly, hopefully, to the President's 
desk.
    Thank you so very much. The hearing is adjourned.
    [Whereupon, at 4:43 p.m., the subcommittee was adjourned.]

                                     
                                  

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
